   DEPARTMENT OF HEALTH AND HUMAN SERVICES                                     Office of Inspector General

                                                                               Office of Audit Services
                                                                               1100 Commerce, Room 632
                                                                               Dallas, Texas 75242


                                                                    September 30, 2008
Report Number: A-06-08-00075

Mr. Ross Pottschmidt
Program Manager, Bureau of EMS
8919 World Ministry Avenue, Suite B
Baton Rouge, Louisiana 70810

Dear Mr. Pottschmidt:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Louisiana Bioterrorism Hospital Preparedness
Program – Bureau of Emergency Medical Services.” We will forward a copy of this report to the
action official noted on the following page for review and any action deemed necessary.

The action official will make final determination as to actions taken on all matters reported. We
request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, OIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Cheryl Blackmon, Audit Manager, at (214) 767-9205 or through e-mail at
cheryl.blackmon@oig.hhs.gov. Please refer to report number A-06-08-00075 in all
correspondence.

                                             Sincerely,



                                             Gordon L. Sato
                                             Regional Inspector General
                                              for Audit Services


Enclosure
Page 2 – Mr. Ross Pottschmidt


Direct Reply to Action Official:

Alan Levine
Secretary
Louisiana Department of Health and Hospitals
628 North 4th Street
P O Box 629
Baton Rouge, Louisiana 70802
Department of Health and Human Services
 

             OFFICE OF 
 

        INSPECTOR GENERAL 
 





         REVIEW OF LOUISIANA
 

        BIOTERRORISM HOSPITAL
 

       PREPAREDNESS PROGRAM -
        BUREAU OF EMERGENCY 
 

          MEDICAL SERVICES
 





                     Daniel R. Levinson
 

                      Inspector General 
 


                      September 2008
 

                       A-06-08-00075
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices 
 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY
 


BACKGROUND

The Bioterrorism Hospital Preparedness Program (the Program) provided funding to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies. The Health Resources and Services Administration (HRSA) administered the
Program until March 2007. At that time, responsibility for the Program was transferred from
HRSA to the Assistant Secretary for Preparedness and Response pursuant to the Pandemic and
All Hazards Preparedness Act (P.L. 109-417, December 19, 2006). The Louisiana Department
of Health and Hospitals (the State agency) entered into cooperative agreements with HRSA to
carry out Program activities and, for the period September 1, 2004, through August 31, 2006, the
State agency received Program funds totaling $15,283,738. The Bureau of Emergency Medical
Services (the Bureau) oversaw emergency medical services (EMS) providers, which received
$3,086,572 of this amount.

OBJECTIVE

Our objective was to determine whether the Bureau claimed costs that were reasonable,
allocable, and allowable.

SUMMARY OF FINDINGS

Of the $2,471,942 in Program expenditures we reviewed, the Bureau and EMS providers were
unable to provide supporting documentation for expenditures totaling $253,485. Because
documentation supporting $43,579 of this amount was destroyed by Hurricane Katrina, we are
questioning only $209,906 of these costs. In addition, EMS providers spent $29,933 in funding
more than 90 days after the Federal Program funding period had ended. The State agency did
not disburse $97,246 in Program funds. We are also setting aside $196,865 in EMS funds that
were disbursed after the Program’s contract between HRSA and the State agency had expired
because we have no assurance that the funds were spent on allowable bioterrorism expenditures.
The remaining $1,937,992 in Program expenditures was spent appropriately.

The Bureau’s lack of formal monitoring procedures contributed to providers’ noncompliance
with the terms of the spending agreements.

RECOMMENDATIONS

We recommend that the Bureau coordinate and work with the State agency to:

   •	 refund to HRSA $209,906 in undocumented expenditures;

   •	 refund to HRSA $29,933 in program funds spent 90 days after the Federal Program
      funding period ended;

   •	 refund $97,246 in undisbursed Program funds to HRSA;

                                            i
   •	 review the $196,865 in EMS funds that were disbursed after the Program contract
      between HRSA and the State agency had expired to ensure that it was spent on allowable
      Program expenditures;

   •	 review funds spent by EMS providers after the spending agreement deadlines had passed,
      and, if determined to be proper, amend the spending deadlines in the contracts with LHA
      and the Bureau to correspond with the end of the Federal Program year funding period;

   •	 ensure that the requirements in future spending agreements with EMS providers are
      followed; and

   •	 monitor grant- and subgrant-supported activities to ensure compliance with applicable
      Federal requirements and achievement of performance goals.

BUREAU OF EMERGENCY MEDICAL SERVICES COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the Bureau of EMS agreed with all but three of our seven
recommendations. However, it provided information on actions that it had taken or planned to take
on all seven recommendations. After we issued our draft report, the Bureau provided additional
supporting documentation. Subsequent to reviewing this documentation and requesting further
support, we revised the report where appropriate. The Bureau’s comments, excluding proprietary
information, are included in their entirety as Appendix C.




                                               ii
                                                TABLE OF CONTENTS 


                                                                                                                         Page

INTRODUCTION..............................................................................................................1 
 


          BACKGROUND .....................................................................................................1         

              Bioterrorism Hospital Preparedness Program..............................................1                             

              Bioterrorism Program Funding ....................................................................1                    

              Louisiana Bioterrorism Program..................................................................1                     
   


          OBJECTIVES, SCOPE, AND METHODOLOGY.................................................2 
 

               Objective ......................................................................................................2    
   

               Scope............................................................................................................2   
   

               Methodology ................................................................................................2        
   


FINDINGS AND RECOMMENDATIONS ....................................................................3 
 


       UNDOCUMENTED EMERGENCY MEDICAL SERVICES

         EXPENDITURES..................................................................................................3 


       SPENDING DEADLINES NOT MET BY EMERGENCY MEDICAL 

          SERVICES PROVIDERS .................................................................................4 


       ISSUES RELATED TO THE TIMING OF DISBURSEMENTS AND 

          RETURN OF BUREAU FUNDS..........................................................................5 


       INSUFFICIENT MONITORING OF PROVIDERS .................................................6 
 


       RECOMMENDATIONS ...........................................................................................6 
 


          BUREAU OF EMERGENCY MEDICAL SERVICES’ COMMENTS AND
           OFFICE OF INSPECTOR GENERAL’S RESPONSE ......................................7 

              Undocumented Emergency Medical Services Expenditures ......................7 

              Spending Deadlines Not Met By Emergency Medical Services 

                Providers ..................................................................................................7 

              Issues Related To The Timing of Disbursements and Return of 

                Bureau Funds ...........................................................................................7 


OTHER MATTERS .........................................................................................................8 
 


APPENDIXES

       A – SUMMARY OF UNDOCUMENTED EMERGENCY MEDICAL SERVICES
            PROVIDER EXPENDITURES




                                                                  iii
B – SUMMARY OF EMERGENCY MEDICAL SERVICES EXPENDITURES MADE
     AFTER SPENDING AGREEMENT DEADLINES

C – BUREAU OF EMERGENCY MEDICAL SERVICES’ COMMENTS




                            iv
                                           INTRODUCTION 
 


BACKGROUND

Bioterrorism Hospital Preparedness Program

The Bioterrorism Hospital Preparedness Program (the Program) provided funding to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies. The Health Resources and Services Administration (HRSA) administered the
Program until March 2007. At that time, responsibility for the Program was transferred from
HRSA to the Assistant Secretary for Preparedness and Response pursuant to the Pandemic and
All Hazards Preparedness Act (P.L. 109-417, December 19, 2006).

Bioterrorism Program Funding

Grants awarded in program years 2003 through 2005 were funded through 1-year appropriations.
HRSA initially established 12-month program years for 2003 through 2005 and then extended
the years for up to 24 additional months.1

To monitor the expenditure of these funds, HRSA required awardees to submit financial status
reports (FSR) showing the amounts expended, obligated, and unobligated. Financial reporting
requirements (45 CFR § 92.41(b)(3)) for Department of Health and Human Services (HHS)
grants to State and local governments state: “If the Federal agency does not specify the
frequency of the report, it will be submitted annually.” Because Program guidance for 2003 was
silent on the frequency of submission, annual FSRs were required for that year. Program
guidance for 2004 and 2005 required quarterly interim FSRs and a final FSR 90 days after the
end of the budget period, which we are referring to in this report as a “program year.”

Louisiana Bioterrorism Program

The Louisiana Department of Health and Hospitals (the State agency) entered into cooperative
agreements with HRSA to implement the Program for the State of Louisiana. (A cooperative
agreement is an award of financial assistance under which substantial collaboration is anticipated
between the HHS awarding agency and the recipient during the project.) Subsequently, the State
agency entered into a contract with the Louisiana Hospital Association (LHA), a nonprofit
corporation, to hire grant coordinators and staff to administer the HRSA grant. The State agency
also entered into interagency agreements with various State subagencies, including Pharmacy
Services, the Nursing Services Section, the Bioterrorism Section and the Bureau of Emergency
Medical Services (the Bureau), which contracted with emergency medical services (EMS)
providers.

LHA disburses HRSA grant funds to EMS providers based on allocation models. The allocation
models specify the grant amount for each hospital and EMS provider and for any special
projects. The EMS allocation models are developed by LHA and Bureau staff, the State agency

1
 For Louisiana, program year 2003 was September 1, 2003, to August 31, 2006; program year 2004 was September
1, 2004, to August 31, 2006; and program year 2005 was September 1, 2005, to August 31, 2007.
                                                     1

grant principal investigator (grant PI), designated regional coordinators (DRC), and
representatives from the Louisiana Rural Ambulance Alliance. The models are approved by the
HRSA Advisory Committee.

The Bureau enters into spending agreements with EMS providers and reviews their supporting
documentation. The spending agreements state the amount of the grants disbursed by LHA, set
spending deadlines, and describe the documentation required to support HRSA grant
expenditures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Bureau claimed costs that were reasonable,
allocable, and allowable.

Scope

Our review covered $2,471,942 of the $3,086,572 in Program funds allocated for EMS providers
for the period September 1, 2004, through August 31, 2006, regardless of the grant year to which
the obligations and expenditures were related.

From the 66 EMS provider spending agreements for program year 2004, we selected a
nonstatistical sample of 20, which totaled $909,240. We reviewed the supporting documentation
submitted by 58 EMS providers for program year 2005 funds totaling $1,495,631. We reviewed
the supporting documentation to determine whether each EMS provider was spending funds
appropriately.

We did not review the Bureau’s overall internal control structure. We limited our internal
control review to obtaining an understanding of the Bureau’s accounting records. Further, we
attempted to determine whether the Bureau had any monitoring procedures in place. We did not
evaluate the performance goals of the Program.

We performed fieldwork at the Bureau from May through August 2007. In May 2008, we
performed additional fieldwork with selected EMS providers.

Methodology

To accomplish our objective, we:

   •	 reviewed relevant Federal regulations to gain an understanding of the financial and
      Program requirements,

   •	 determined how funds were disbursed to EMS providers,




                                               2

   •	 reviewed sampled EMS providers’ expenditures, and

   •	 determined whether the Bureau had monitoring procedures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the $2,471,942 in Program expenditures we reviewed, the Bureau and EMS providers were
unable to provide supporting documentation for expenditures totaling $253,485. Because
documentation supporting $43,579 of this amount was destroyed by Hurricane Katrina, we are
questioning only $209,906 of these costs. In addition, EMS providers spent $29,933 in funding
more than 90 days after the Federal Program funding period had ended. The State agency did
not disburse $97,246 in Program funds. We are setting aside $196,865 in EMS funds that were
disbursed after the Program contract between HRSA and the State agency had expired because
we have no assurance that the funds were spent on allowable bioterrorism expenditures. The
remaining $1,937,992 in Program expenditures was spent appropriately.

The Bureau’s lack of formal monitoring procedures contributed to providers’ noncompliance
with the terms of the spending agreements.

UNDOCUMENTED EMERGENCY MEDICAL SERVICES EXPENDITURES

Pursuant to 45 CFR § 74.21(b)(7), one of the grant administration requirements applicable to
HHS-funded grants and subawards to nongovernmental entities, including nonprofit
organizations and commercial organizations is that recipients’ financial management systems
should provide accounting records, including cost accounting records, that are supported by
source documentation.

The “2004-2005 HRSA Bioterrorism Preparedness Grant Spending Agreement for EMS
Providers” states: “You will be required to provide receipt(s) to the Office of Public
Health/Bureau of EMS. These monies must be spent by [a specific date] and “PAID” receipts
and/or cancelled checks for these expenditures must be provided” to the Bureau by [a specific
date].

For program year 2004, we reviewed supporting documentation for 20 providers. We identified
seven EMS providers that did not provide all of the required supporting documentation for 2004
Program expenditures totaling $96,664. Because documentation from four providers supporting
$43,579 of the total was destroyed by Hurricane Katrina, we are questioning only the remaining
$53,085.

   •	 Two providers provided invoices for their expenditures; however, they did not provide
      documentation that showed that expenditures totaling $38,460 had been paid.

                                               3

    •	 One provider was unable to provide documentation to support expenditures totaling
       $14,625.

For program year 2005, we reviewed supporting documentation for 58 providers. We are
questioning $156,821 in undocumented expenditures.

(See Appendix A for a summary of the undocumented EMS provider expenditures.)

SPENDING DEADLINES NOT MET BY EMERGENCY MEDICAL SERVICES
PROVIDERS

Pursuant to 45 CFR § 92.40, “Grantees must monitor grant and subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved.”

Regulations (45 CFR 74.51(a)) state: “Recipients are responsible for managing and monitoring
each project, program, subaward, function or activity supported by the award.”

In accordance with 45 CFR § 92.23(b), “A grantee must liquidate all obligations incurred under
the award not later than 90 days after the end of the funding period . . . . The Federal agency
may extend this deadline at the request of the grantee.”

Pursuant to 45 CFR § 74.71(b), “Unless the HHS awarding agency authorizes an extension, a
recipient shall liquidate all obligations incurred under the award not later than 90 calendar days
after the funding period . . . .”

The “2004-2005 HRSA Bioterrorism Preparedness Grant Spending Agreement for EMS
Providers” states: “You will be required to provide receipt(s) to the Office of Public
Health/Bureau of EMS. These monies must be spent by [a specific date] and “PAID” receipts
and/or cancelled checks for these expenditures must be provided” to the Bureau by [a specific
date].

The sampled 2004 EMS providers spent 94 percent, or $758,793, of their program year 2004
funding after their contracts with the State agency had expired. A recipient must obligate federal
funds within the Federal program year funding period established by HRSA. A recipient has an
additional 90 days after the close of the funding period to liquidate all obligations incurred in the
funding period. Of the $758,793 that was spent after the contractual spending deadline, $85,703
was spent after the Federal Program deadlines. 2 Because we cannot distinguish between the
EMS providers’ obligations and liquidations we are only questioning $21,292, which was spent
beyond the 90 days after the Federal Program funding period.

Similarly, we reviewed the supporting documentation provided by 58 EMS providers for
program year 2005. Of the amount reviewed, $8,641 was spent beyond 90 days after the Federal
Program funding period ended. Because we were not provided with spending agreements for
these providers, we could not determine the amount spent after the spending agreement

2
 The contractual spending agreement deadline is specified in each provider’s spending agreement. The Federal
Program deadline is determined by HRSA for each program year.
                                                       4

deadlines. We asked a Bureau official several times why EMS providers had spent funds after
the spending deadlines, but we have not received a response. Therefore, we are questioning a
total of $29,933 that was spent more than 90 days after the Federal Program funding period had
ended.

(See Appendix B for a summary of EMS provider expenditures made after spending agreement
deadlines.)

ISSUES RELATED TO THE TIMING OF DISBURSEMENTS AND RETURN OF
BUREAU FUNDS

Pursuant to 45 CFR § 92.21(c), “Grantees and subgrantees shall be paid in advance, provided
they maintain or demonstrate the willingness and ability to maintain procedures to minimize the
time elapsing between the transfer of the funds and their disbursement by the grantee or
subgrantee.”

Regulations (45 CFR § 92.23) state: “Where a funding period is specified, a grantee may charge
to the award only costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted, in which case the carryover balances may be charged for costs
resulting from obligations of the subsequent funding period.”

For program year 2005, the contract between the State agency and LHA expired on November
30, 2006,3 leaving $1,530,531 undistributed to EMS providers. Although the State agency had
disbursed these funds to LHA on July 14, 2006, LHA did not disburse any funds to EMS
providers until February 19, 2007.

LHA eventually disbursed $1,495,631 to EMS providers, leaving $34,900 of the original
allocation still undisbursed. Subsequently, EMS providers returned $30,175 in Program funds.
Therefore, we are questioning $65,075 in undisbursed Program funds that remained in LHA’s
bank account at the end of program year 2005.

We continue to set aside $196,865 of the total disbursed to EMS providers for program year
2005 because it was disbursed after the contract between the State agency and LHA expired.
Documentation for the Program expenditures was not available at the time of our fieldwork. We
requested the Bureau provide additional documentation after the issuance of the draft report.
However, the additional supporting documentation provided no assurance that the funds were
spent on allowable Program expenditures.

A Bureau official said that the two individuals who were coordinating the HRSA Pre-hospital
Program left and that the Bureau was not able to locate the supporting documentation for
program year 2004. Therefore, the Bureau had to request supporting documentation from EMS
providers. Because the Bureau would not release program year 2005 funds until it received the
2004 supporting documentation, the 2005 disbursements were delayed. In addition, we are
questioning $32,171 for program year 2004 funds because an LHA official said that three EMS

3
 The cooperative agreement between HRSA and the State agency ran until August 31, 2007; therefore, the State
agency still had the authority to spend the money. However, the contract between the State agency and LHA was not
extended.
                                                       5

providers had returned the funds to LHA. These program funds were not reallocated and
remained in LHA’s bank account at the end of program year 2005.

INSUFFICIENT MONITORING OF PROVIDERS

Pursuant to 45 CFR § 92.40, “Grantees must monitor grant and subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved.”

In accordance with 45 CFR § 74.21(b), recipients’ financial management systems should provide
accounting records, including cost accounting records, that are supported by source
documentation.

The “2004-2005 HRSA Bioterrorism Preparedness Grant Spending Agreement for EMS
Providers” states: “You will be required to provide receipt(s) to the Office of Public
Health/Bureau of EMS. These monies must be spent by [a specific date] and “PAID” receipts
and/or cancelled checks for these expenditures must be provided” to the Bureau by [a specific
date].”

The Bureau did not have written monitoring policies or procedures. The Bureau did not have all
of the supporting documentation for the sampled providers’ expenditures. We could not always
determine whether expenses were paid. After reviewing the supporting documentation that the
Bureau provided, we contacted the EMS providers to request additional support. We were able
to obtain the supporting documentation for only one additional provider in our sample and
verified that another provider had lost its supporting documentation in Hurricane Katrina.
Without this support, the Bureau had no assurance that the expenditures were paid or that the
providers were spending Program funds on allowable expenditures.

RECOMMENDATIONS

We recommend that the Bureau coordinate and work with the State agency to:

   •	 refund to HRSA $209,906 in undocumented expenditures;

   •	 refund to HRSA $29,933 in program funds spent 90 days after the Federal Program
      funding period ended;

   •	 refund $97,246 in undisbursed Program funds to HRSA;

   •	 review the $196,865 in EMS funds that were disbursed after the Program contract
      between HRSA and the State agency had expired to ensure that it was spent on allowable
      Program expenditures;

   •	 review funds spent by EMS providers after the spending agreement deadlines had passed,
      and, if determined to be proper, amend the spending deadlines in the contracts with LHA
      and the Bureau to correspond with the end of the Federal Program year funding period;


                                               6
 

   •	 ensure that the requirements in future spending agreements with EMS providers are
      followed; and

   •	 monitor grant- and subgrant-supported activities to ensure compliance with applicable
      Federal requirements and achievement of performance goals.

BUREAU OF EMERGENCY MEDICAL SERVICES’ COMMENTS AND OFFICE OF
INSPECTOR GENERAL’S RESPONSE

In its comments on our draft report, the Bureau of EMS agreed with three of our seven
recommendations. However, it provided information on actions that it had taken or planned to take
on all seven recommendations. After we issued our draft report, the Bureau of EMS provided
additional supporting documentation. Subsequent to reviewing this documentation and requesting
further support, we revised the report where appropriate. The Bureau’s comments, excluding
proprietary information, are summarized below and included in their entirety as Appendix C.

Undocumented Emergency Medical Services Expenditures

The Bureau provided documentation for part of the $53,085 in undocumented expenditures.
However, we determined that the documentation provided did not support these expenditures.
We continue to recommend that the Bureau refund $53,085 to HRSA. The Bureau stated that it
has instituted strict policies for compliance and will alter future allocation models to reflect
provider noncompliance and future funding for these providers.

Spending Deadlines Not Met By Emergency Medical Services Providers

The Bureau stated that amended contracts had been sent to providers that had spent funds more
than 90 days after the Federal Program funding period. Regulations require that obligations be
incurred within the Federal program year funding period (45 CFR § 74.28) and that those
obligations be liquidated within 90 days after the end of the funding period unless the HHS
awarding agency authorizes an extension (45 CFR § 74.71(b)). In response to our
recommendation, the Bureau of EMS amended three contracts to extend the spending deadline.
However, the extensions were beyond the Federal Program funding period. In addition,
according to Federal regulations, only HRSA, the awarding agency, can extend the Federal
deadline. However, HRSA did not authorize an extension of the deadline. Therefore, we
continue to recommend that $21,292 be refunded to HRSA. The Bureau of EMS stated that it
will ensure that all future extensions will be in writing and that copies will be placed in the
providers’ files.

Issues Related To The Timing of Disbursements And Return Of Bureau Funds

The Bureau stated that the agreement with LHA allowed for corrective actions to be
implemented until all funds from 2004 and 2005 were accounted for. After the providers had
provided supporting documentation for their expenditures, the Bureau released all but $65,075 in
funds, which was returned to LHA.




                                                7

Of the $1,495,631 disbursed to EMS providers, we accepted documentation for $1,133,304. For
the remaining $362,327, we are:

   •	 questioning $156,821 in undocumented expenditures,

   •	 questioning $8,641 that was spent beyond 90 days after the Federal funding period, and

   •	 setting aside $196,865 in expenditures because we could not determine from the 
 

      supporting documentation provided whether the expenditures were allowable. 
 


The Bureau stated that it has established a procedure to validate proof of payment for released
funds. At this time, any provider that has not submitted documentation as proof of funds being
spent will not be eligible for the following grant year funds. Each deadline date is posted on the
agreement along with the statement for future funds.

                                      OTHER MATTERS

LHA told us that an EMS provider returned program year 2003 EMS funds totaling $22,053 on
November 30, 2006. The EMS provider received the check on October 8, 2004. These program
funds could not be reallocated and remain in LHA’s bank account.




                                                 8
 

APPENDIXES 
 

                                                                                                   APPENDIX A
                                                                                                     Page 1 of 2



                      SUMMARY OF UNDOCUMENTED EMERGENCY MEDICAL
                                 SERVICES EXPENDITURES


                                   Undocumented
   Program Year 2004 Providers       Amount                      Reason for Disallowance

Care Ambulance Service                   $12,775   Hurricane destroyed documentation
Claiborne Ambulance Service               15,875   Could not determine whether expenses paid
East Jefferson EMS                         5,154   Hurricane destroyed part of the documentation
Emergystat                                14,625   Could not submit documentation
Grand Isle Volunteer EMS                  12,550   Hurricane destroyed documentation
On Call Nursing & Associates              13,100   Hurricane destroyed documentation
Shreveport Fire Department                22,585   Could not determine whether expenses paid
  Total                                 $96,664
Hurricane-related expenditures          (43,579)
  Total Unallowable Expenditures        $53,085
                                                                                                     APPENDIX A
                                                                                                       Page 2 of 2
                               SUMMARY OF UNDOCUMENTED EMERGENCY MEDICAL
                                          SERVICES EXPENDITURES

                                         Undocumented
    Program Year 2005 Providers            Amount                     Reason for Disallowance
American Medical Response                       240.00    No Documentation
Caddo Parish Fire District #3                 5,660.00    No Documentation and No Proof of Payment
D'Arbonne Ambulance Service                  16,475.00    No Documentation
Guardian Emergency Medical Services          15,550.00    No Documentation
Lafourche Ambulance District #1                  72.00    No Documentation
Life Guard Ambulance Service                   $17,400    No Documentation
LA Rural Ambulance Alliance                      18,240   No Documentation and No Proof of Payment
Med Express Ambulance Service Inc                22,025   No Documentation
Metro Rural Services LLC                            350   No Documentation
Ruston Fire Department - Lincoln Parish A        13,700   No Documentation
Shreveport Fire Department Emergency M           22,500   No Documentation
St. Tammany Parish Fire Protection                9,984   No Documentation
St. Tammany Parish Fire Protection               14,625   No Documentation

                         2005 Total           $156,821

                       2004 Total              $96,664
    Total from both Program Years             $253,485
 2004 Hurricane-related expenditures           (43,579)

                       Grand Total            $209,906
                                                                                                                          APPENDIX B
                                                                                                                            Page 1 of 2
                   SUMMARY OF EMERGENCY MEDICAL SERVICES EXPENDITURES MADE
                             AFTER SPENDING AGREEMENT DEADLINES

                                                                                                               Amount Spent
                                               Spending                                Amount Spent             90 days After
                                               Agreement          Amount Spent         After HRSA              HRSA Program
        Program Year 2004 EMS                   Amount            After Deadline       Program Year                 Year
Acadian Ambulance                                 $232,025              $222,083             $6,800
Christus Schumpert Ambulance                        14,950                14,950             14,744                  $14,744
East Carroll Parish                                 13,700                13,700              1,396
East Jefferson EMS *                                19,296
Jackson Parish                                      14,625                 14,625
LaSalle Parish                                      11,850
LaSalle Parish Ambulance-Hardtner                   11,850                 11,850
LA Rural Amb. Alliance                             373,165                364,656              56,112
New Orleans Health                                  49,825                 49,825
Shreveport Fire Dept. *                              1,765                  1,765
St. Charles Parish Hosp. Ambulance                  14,625                 14,625               2,820                  2,820
St. Landry EMS                                      12,775                 12,775                 103
Tulane EMS *                                         9,333                  8,302               3,728                  3,728
Westwego EMS                                        11,850                 11,850
West Jefferson                                      18,425                 17,788

Program Year 2004 Totals                           $810,059               $758,794             $85,703                $21,292


* Original Spending Agreement adjusted to limit the amount spent after the deadline to the amount supported.
                                                                                                                      APPENDIX B
                                                                                                                        Page 2 of 2
                  SUMMARY OF EMERGENCY MEDICAL SERVICES EXPENDITURES MADE
                            AFTER SPENDING AGREEMENT DEADLINES
                                                                                                         Amount Spent
                                              Spending                               Amount Spent         90 days After
                                              Agreement         Amount Spent         After HRSA          HRSA Program
Program Year 2005 EMS                         Amount*           After Deadline*      Program Year             Year
Life Air Rescue                                    10,925                                                            700
Louisiana Rural Ambulance Alliance                204,806                                                          7,941

Program Year 2005 Totals                          215,731                                                           8,641


Grand Totals                                     1,025,790              $758,794            $85,703               $29,933


*Auditor's note: Because we did not have the spending agreements for all of the 2005 EMS Providers, we were unable to determine
the amount spent after the spending agreement deadline. The amount listed under "Spending Agreement Amount" is the amount that
they received from LHA according to the allocation model for EMS Providers.
APPENDIX C
  Page 1 of 5 

APPENDIX C
  Page 2 of 5 

APPENDIX C
  Page 3 of 5 

APPENDIX C
  Page 4 of 5 

APPENDIX C
  Page 5 of 5 

